No. 19-215

3fit tEbe

*upreme Court of the aittiteb iikateo _ _ —
•
DARREL CONELL NEVELS,
Petitioner,
vs.
PIGGLY WIGGLY CORPORATION
and NASEEM JR. AJLOUNY,
Respondents.

•
On Petition For A Writ Of Certiorari
To The Court of Civil Appeals Of Alabama
•
PETITION FOR REHEARING
•
DARREL CONELL NEVELS (Pro Se)
P.O. Box 39755
Birmingham, Alabama 35208
Tel: (205) 230-1115
E-Mail: darrelnevels@gmail.com
Friend of the Court

1

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

PETITION FOR REHEARING

1

REASONS FOR GRANTING PETITION

2

2
I. RELEVANT CASES
Petition Due Process Rights as guaranteed by Sixth and Seventh Amendments of the Constitution
This court should Not Resolve the
Substantial and Important Factual Issues in this injury case without Full
Briefing and Argument
4
STATEMENTS OF FACTS
8
CONCLUSION

11

TABLE OF AUTHORITIES
_
CASES

_ — — Page

Bank of Waunakee v. Rochester Cheese Sales,
906 F.2d 1185 (7th Cir. 1990)

6

Board of Regents v. Roth, 408 U.S. 564 (1972)

2

Carlson v. Township of Smithfield, 723 A.2d
1129 (R.I. 1999)

3

Goldman v. Gaguard, No. 11 C 8843, 2012 Wt.
2397053 (N.D. Ill. Jun. 21, 2012)

6

In re Brand Name Drugs, 878 E Supp. 1078
(N.D. 1995)

9

In re Oliver, 333 U.S. 257 (1948)

2

James v. Borg, 241 F.3d 24 (9th Cir. 1994)

2

Kentucky Dept. of Corrections v. Thompson, 490
U.S. 424 (1989)

2

O Sullivan v. Boreket, 526 U.S. 838 (1999)

3

Satink v. Holland Township, 31 F. Supp. 229
(D.N.J. 1940)

9

CONSTITUTIONAL PROVISIONS
Constitutional Amendments 1-25
4th, 5th, 6th, 7th, 9th, and 14th

1

iii
TABLE OF AUTHORITIES — Continued
Page
STATUTES
Federal Rules of Appellate Procedure:
Rule 44
Rule 54(b)

1
5, 6

Rule 40

1

Rules 27, 28, and 33

3

Rules 34, 35, 37, 41, 47, and 48(a)(b)

2

Rules 16, 17, 19, 18, and 20

8

Rules 1, 3, 3.1, 4, and 5

8, 9

1
PETITION FOR REHEARING
Federal Rules of Civil Procedure Rule 33, 40, 44
(B), (c) — Proving an Official record this matter comes
before this court, Darrel Conell Nevels Respectfully
Motion for Reconsideration of the Court's hereby
acknowledge the court Granting Respondent(s) per curiam decision issued a denial of the Rule 35 undisputed
petition supporting facts and burden of Proof DARREL
CONELL NEVELS V. PIGGLY WIGGLY ALABAMA
DISTRIBUTION CORPORATION INC. On October
21, 2019 case No. 19-215. Mr. Nevels moves this court
to grant this Petition for Rehearing and consider his
case with merits briefing and oral argument also request for Examination of questions about being the injured party in this case Rights as a Noble Citizen
granted entitled to Due Process as guaranteed by the
4th, 5th, 6th 7th, 9th & 14th Amend. (1873 decision,
the court effectively nullified a more straightforward —
and capacious — guarantee (1868, protection of Americans' "Privileges or immunities of the Constitution was
written during the Southern suppression of the economic liberties and other rights of freed slaves. The
clause was intended to protect the full panoply of national rights a process without a discernible principle
— distinguishing protection from under serving lesser
rights, encompassing those In Anglo-American legal
traditions and state constitutions, and not ignoring the
9th Amend: "The enumeration in the Constitution of
certain rights, shall not be construed to deny or disparage others restrained by the people." As the petitioner
in this court of record actually have rights that are

2
promised to us or not holds that substantive in this
clause acting as a safeguard from arbitrary denial of
life, liberty, or property by the government outside the
sanction of law. The Petition for Rehearing is properly
filed within 25 days of this court's decision in this
case.

•
REASON FOR GRANTING PETITION
The Constitutional law plays an important role in
keeping government transparent and accountable, and
has been used to expose a wide range of government
misconduct and waste, along with threats to public's
health safety. And up until the issuance of its opinion
in this case, without briefing or argument, reversing a
lower appellate court's grant of a judgment to the injured party or Respondent(s) Rule 33, 34, 35, 37, and
41 Settlement out of court where the Constitutional
claim received no state appellate court review. Rule 47
and 48(a)(b) Courts have issued numerous rulings
about what this means in particular cases.
I.
1.

RELEVANT CASES
Board of Regents v. Roth, 408 U.S. 564, 69 (1972)
protected under the Due Process Clause Kentucky
Dept of Corrections v. Thompson, 490 U.S. 424, 461
(1989), (see In re Oliver, 333 U.S. 257, 273 (1948),
(James v. Borg, 24 F. 3d 20, 24 (9th Cir.), cert. denied, 115 S. Ct. 333 (1994) The small number of
cases in which a full bench can rehear a case decided by an equal division probably amounts to the

3
largest class of cases in which a Motion for Reconsideration after a decision on the merits has any
chance of success. Id. at 839. An abuse of discretion
was being demonstrated in the denial under oath
of office. (See Carlson v. Town of Smithfield, 723 A
2d. 1129, 1131 (R.I. 1999).
The state trial judge's factual and legal determination were not subject to review by state appellate court. Constitution is indeed this is the
principle of comity that undergrid the statutory
laws do not carry the same force where has declined to provide "fill and fair" procedures for reviewing a constitutional law. (See 0 Sullivan v.
Boerekel, 526 U.S. 838, 845 (1999) (This rule of
comity reduce the friction between the state and
federal court systems, by avoiding the (1944)
((W)here resort to the state court remedies has
failed to afford a full and fair adjudication of federal contentions raised, either because the state
affords no remedy . . . or because in the particular
case the remedy afforded by state law proved in
practice unavailable or seriously inadequate. . . . a
federal court should entertain Mr. Nevels petition.
Mr. Nevels rights to Due Process by a court of law,
consistent with this view, circuit courts have recognized that "full and fair Reconsideration" of petitioner's rights claim in state court includes at
feast one evidentiary hearing in a trial court and
availability of meaningful appellate review when
there are facts in disputes, and full Reconsideration by an appellate court when the facts are not
In dispute or undisputable. Rules 27 & 28

4
4.

The appellate court upon receiving Mr. Nevels petition "must conduct" a review of the entire record,
regardless of whether Respondent(s) counsel filed
a response brief The Supreme Court nor the lower
court's has not approve this injury case for review
only the record for potentially meritorious appellate issues. Mr. Nevels Motion for Reconsideration
Alabama's decision to deny his petition insulate an
arguably unconstitutional decision about whether
this case should be reviewed both because It results in the inconsistent application of the law.

•
STATEMENTS OF FACTS
Petitioner Due Process rights as guaranteed by
6th & 7th Amend, Of the Constitution protect us, The
opinion conflicts under the oath of office with U.S Supreme Court precedent because they denied my petition Mr. Nevels interlocutory hearing en Banc Rule 35
of qualified rights to Due Process based on Whether
Respondent(s) which under disclosure it was unknown
who owns the PIGGLY WIGGLY ALABAMA DISTRIBUTION CORPORATION originally from or in the beginning in the first place and the courts actions
violated clearly established law let the record reflect
all information was disclosed, which is a legal question
for which all courts has jurisdiction. Rule 26.1(a)(b)(c)
1. This court has repeatedly recognized that state
appellate review is necessary to protect against arbitrariness, capriciousness, and error. What was
plain from that petition form of meaningful appellate review is an essential safeguard against error

5
under the Constitution. The lower court proceeded
based on a trial court determination un-reviewed
by any state appellate court. Mr. Nevels believes
this is untenable under the rights of Due Process,
at a minimum it should be resolved by this court
of record after Mr. Nevels injury on April 15, 2016
he had financial hardship, pain, suffering, lost
wages and recurring injuries from the left hand,
left knee, and left foot swelling can barely move
around.
This was caused by the Respondent(s) gross negligence duty of care the Appellee(s) has been going
back and forth with this injury case and insurance
claim for settlement negotiations from Nationwide
Insurance Company agent Mrs. Rose Smith last
contact with her on September 20, & 28, 2018 they
all should be held accountable and liable for damages to the injured party in this case because their
store has a duty of care policy to all visitors. Petitioner has the burden of proof and preponderance
of evidence to support in making a "Prima Face" as
a man. Rule 19
Issue is not whether Petitioner was injured but
whether his Constitutional Rights were violated.
Petitioner hopes with this honorable court review
the record that it will clearly see Rights to review
a legal determination under oath of the Constitution so that It may have the benefit of full merit
briefing and argument moreover, this is appropriate in light of the federal determinations made in
this court's summary opinion. Courts in the District have construed inherent reconsider interlocutory orders as arising under Rule 54(b) in
addition to the Court's inherent authority and

6
common law. See e.g. Goldman v. Gaguard, No. 11
C 8843, 2012 Wt. 2397053,*2 (N.D. Ill. Jun. 21,
2012) Rule 20
In addressing a motion to reconsider an interlocutory order, court in this district have also applied
the standard established in Bank of Waunakee v.
Rochester Cheese Sales, Inc., 906 F.2d 1185, 1191
(7th Cir. 1990) A motion for reconsideration
brought pursuant to Rule 54(b) may be granted
where the court has obviously misunderstood a
party, where the court's decision rests on grounds
outside the adversarial issues presented to the
court by the parties, where the court has made an
error not of reasoning but of apprehension, where
there has been a controlling or significant change
in the facts of the case Rule 16 & 17
There was "un-rebutted evidence that Mr. Nevels
suffered from a slip and fall injury to his left hand
cause of Respondent(s) negligence duty of care and
understand the connection between lack of any appellate court review or testimony in a court of records in this case related to unconstitutional acts.
Nor was the opinion based solely on Preponderance of evidence this court has Mr. Nevels consent
to subpoena all medical records for treatment and
numerous test treatments the Doctor(s) reason
professional opinion of his injury based on medical
evaluation the review of significant medical records of the injury.
Dr. Woody treatment at Chiractique, Halo, laser
fight therapy, and magnesphere relaxation. The
N.P.(s) and M.D. for medicines and a brace to keep
my left hand straight to recover in line. Dr.

7
Christopher instructed him on how to take the
medicine Esomeprazote DR. 40mg. cap on 8-122016 for his bleeding stomach and left hand injury
to help his stomach recover and asked the nurse
to pump out the medicines in his stomach to remove the poisons, a stool sample, ERG-scan, more
medicines prescribed for the bleeding stomach.
He was hurting worse this pain and suffering everyday fingers tingling and blood Pressure stays up.
The Rule 59 and Rule 56 under Federal Rules of
Civil Procedure for the Supreme Court to review
in the name of justice also under Rule 53(a)(20)(c)
does not apply when the order of Judgment resulted from misapplication of law to the facts" The
Ore Tenus as "corollary has no application where
the facts are indisputable fact.
Mr. Nevels was not at fault and competent on April
15, 2016 a slip and fall injury occurred on the Respondent(s) Property and this is material the two
parties do not disagree on it He is the injured
party in this case the Respondent(s) are the owners of this Commercial property under customerfriendly premises liability laws. They are the
direct cause of the injury, interfering with his
rights to Due Process, and to settle this case. This
opinion conflicts with the court precedents because it denied a man's petition without state appellate review without identifying a case that
showed it was dearly established court of law and
record. No court case has addressed whether a
Due Process under similar circumstance violated
clearly established law in this case Mr. Nevels
does not understand the act that he's being denied
and punished for nor the reason behind the

8
current, proceeding applies to him In this case.
Rule 16, 17, 18, & 19

•
CONCLUSION
This court should not resolve the substantial and
important factual issues in this case without Full
Briefing and Argument. Rules 4 & 5
There is un-rebutted evidence presented in the
state trial court established that on April 15, 2016, Petitioner suffered an Injury, while shopping on Respondent(s) property. April 18, 2016 he was admitted in for
treatment and service at Princeton Emergency Dept.
with left hand laceration, cut open, skin, fat muscle —
injured the tendons, blood vessels, and severe nerve
damage. Mr. Nevels left hand was numb he can no
longer work with his injury due to muscle cramps,
wounds, swelling, stiffness, aches, spasms, a deep cut
with severe irreversible nerve damage,; permanent injury, scars, weakness, loss of mobility, and emotion
stress.
April 18, 2016 an injury report was filled out in the
Respondent(s) Store property in front of manager
TOMMY LANDEY HIS STAFF, and EMPLOYEES, no
copy was given at this anytime the court has to subpoena these documents. He works with his hands along
with other projects unable at this time due to the injury. On basis of facts and evidence, each judge on the
Eleventh Circuit Panel found that as a matter of law
he is competent and his injury claim and complaint is

9
therefore prohibited by law his rights to Due Process
(Satink v. Holland Township, 31 F. Supp. 229 (D.N.J.
1940) he therefore does not think that Alabama can,
consistent with the Constitution, denying his Rights as
a man. Though this court explicitly declined to express
a view "on the merits of underlying question under
oath of office the court has denied a petition date October 21, 2019. Asserting that "there are no further Impediments to the violation of his rights under bill of
rights. These are precisely the type of factual issues
that need to be resolved in Full briefing and argument
and for that reason, a Petition for Rehearing is appropriate. (Summary disposition only appropriate in case
where law is settled and stable, the facts are not In
dispute and the decision is clearly in error (an issue is
"contestable" for purpose of 1292(b) if there is a "difficult central question of law which Is not settled by controlling authority "and a substantial likelihood exists
that the district court's ruling will be reversed on appeal") (quoting In re Brand Name Drugs, 878 F. Supp.
1078, 1081(N.D. 1995) (Pursuant to 1291) Rule 1, 3, &
3.1
Aforementioned the damage include but not limited to: Medical Expense, lost wages, punitive damages,
has, may, and probably will for an indefinite time in the
further be deprived of ordinary, pleasures of life, loss of
well being, and equanimity his overall health,
strength, and rituality have been greatly impaired
family time and no price anyone can put on health. He
request at the court discretion that Respondent(s) be
held accountable and liable for all cost past, present,
and further cost, all legal, mailing postal fees, he has

10
incurred in the settling of this case. Collection on a
Judgment on all counts of violations of Rights amount
leave open ended at the amounts of damages multiplied by the highest number. Rule 19 &20
Mr. Nevels respectfully request that this Court
grants the Petition for Rehearing and order Full briefing and Argument on the merits of this Right to Due
Process case it should be put in prayer and granted.
Respectfully submitted,
DARREL CONELL NEVELS (Pro Se)
P.O. Box 39755
Birmingham, Alabama 35208
Tel: (205) 230-1115
E-Mail: darrelnevels@gmail.com

11
CERTIFICATE OF GOOD FAITH
__ —T-he-undersigned hereby certifies that this Petition
for Rehearing is restricted to the grounds specified in
Rule 44.2 of the Rules of the Supreme Court and is presented in good faith and not for delay.

DARREL CONELL NEVELS (Pro Se)
P.O. Box 39755
Birmingham, Alabama 35208
Tel: (205) 230-1115
E-Mail: darrelnevels@gmail.com

